1»

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

NOV 1 6 2020
OFFICE OF THE CL FBK

is:

Hamid Reza Ardaneh

— PETITIONER

(Your Name)
vs.
Massachusetts, et al.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Full Supreme Judicial Court for the Commonwealth of Massachusetts
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Hamid Reza Ardaneh

(Your Name)
20 Administration Road

(Address)
Bridgewater MA 02324
(City, State, Zip Code)
508 279 4500
(Phone Number)

QUESTIONS PRESENTED
1) If the petitioner connot enforce his equality of Rights in
lower state Courts Based on Discrimination toward his nationality
of being Iranian, then why the Supreme Courts refusing to take
Jurisdiction of the case when Clearly the lower state Courts fl&rCu/O
no longer merits statutory and Constitutional mandates Due to
intense Discrimination Based on the impermissible Consideration
of race Sex, Language, Religion and National Origin?
2) Why Bribing, Intimidation of Witnesses and making False Police
Reports are not crimes for the jewish people in the U.S.A.?
3») Why is 5 years Commonwealth hiding crimes to protecting guilty
jewish people and deprived of life and liberty for Innocence?
4)Why Commonwealth stole my evidences in jail and try anything
to destroy my evidences?
5) Why Commonwealth 2 years without Criminal Defense Counsel
keep me in a mental Hospital?
6) What evidence the Commonwealth have for prove of Allegedly
Unconstitutional false Criminal and Mental health charges?
7) What evidence the Commonwealth have for prove of Likelyhood
of serious harm and dangerous to others for deprived of life and
liberty for me and forcing me to take false Psych Medications?
8) Is that true Judges in the U.S.A. making false Judgment by
order from U.S. Jewish Mafia, not Based on evidences, law and
the U.S. Constitution?
9) Why Commonwealth is 5 years ignoring crimes of the Alleged
victim for Bribing to the Defendant 30 minutes before making
Allegedly false police Reports?
10)Why Commonwealth using dangerous prisoners for attack mentaly
and physically to me for forcing to do fight or crime?
11)Why Commonwealth of Massachusetts violating my Constitutional
Rights Amendment 1, 5, 6, 8 and 14?
12)Why Commonwealth violating all Article of the United Nations
Universal Declaration of Human Rights 1948?

13)Why Commonwealth arrested Innocence and Protecting guilty?
14)Why Commonwealth is 5 years using fake Defense Counsel not for
protecting defendant, for hiding crimes to protecting guilty the
Alleged victim and her family because they are Jewish?
15)A Justice means to me protecting life and liberty for actual
Innocence, arrest guilty, not hiding crimes to protecting guilty,
not making false crimes for Innocence, not deprived of life and
liberty for Innocence, not forcing to take false Psych medication
not attack and not torture!, so what is maens A Justice to you?
16)If I have no right to.recorded my voice for true evaluations,
no right to use Witness, no right to true translations, no right
to Counsel, no freedom of Speech, no right to use my evidences,
no right to complaint from the Alleged victim, so what is my
right for Defense, my Constitutional and fundamental Rights?
17)Why Massachusetts using G.L.c.123 §8(b) of state laws and
violating the U.S. Constitution 14 Amendment Rights to Refuse
medication, falsely said I cannot make decision for my treatment
and forcing me to take false Psych medications?
18)If is not Important Sex, Language, Religion, National Origin,
money and support in Courts in the U.S.A. so why is not Justice
for actual Innocence Iranian legal Refugee and all Courts Refused
to against guilty American Jewish Rich people?
19)305 witnesses, 250 staff of the Hospital signed for supporting
of facts and proved I am not dangrous and I am always Respectful,
to everybody, why Judge without any prove call me dangerous to
others and forcing me to take false Psych medications?
20)Why is not freedom of Religion for me in the U.S.A.?
21)1 am a legal Refugee status, the Court call me incompetent for
stand trial by excuse not know Court process sent me to thecspits.
Hospital, why Commonwealth making false Mental illness, deprived
Of life and liberty for Innocence?
22)1 am 42 years old, 20 years I was married man, I do not have
any record, did not any crime, did not fight and did not harm a
anyone in whole my life, so why I am in a jail?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
vfA.11 parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
COMMONWEALTH OF MASSACHUSETTS
MIDDLESEX SUPERIOR COURT
GRAND JURY OF MIDDLESEX
DISTRICT ATTORNEY CEARA MAHONEY
BROCKTON DISTRICT COURT
SUPERINTENDENT OF BRIDGEWATER STATE HOSPITAL
DOCTOR SARA LANIADO
HEATHER STROUD
ERIN REGAN
JAMES DEBLOIS
ABDULLAH ALJOBORI
INTERPRETER ALI TALEBINEJAD
INTERPRETER JASMIN PAKIZEGI
SANAZ SIYONIT
JACOB BABAI
DAVID MERFELD
BONNIE FRIEDMAN
SUPERINTENDENT OF JAIL BILLERICA
CAMBRIDGE DISTRICT COURT
CAMBRIDGE FAMILY COURT

i a hie of Can\en\s
opinions Below--------------------------s'drcf' [0,n - ----------------------------Std&eme/rt of fact's foR +h<? Gi<e----fAepooRGUidaro of Iau/ foR the Case——

Pci^e

-— 2
3-17
-- 12- 2)

iRanxIafed of PfRSSiUp^R and [/aiaf/V^ii of the ftllepifd v /cH/a—Z2-25
R eka&n < fofz Gxcunf in® the Pei / hyen — -

— 26

27-30

"Table nf flu ih(vR i hie z-------------------------

CoAstihirHanal /Wrl Sha htt toR 7 PeovialonRln volved------ 3 1
L&qi:Lu~$1oj3u=^=j=
Pftcxpf of Service-------

----- 32
-- 3^

Index To Rpp&ndi c.a.<

Pfppe/)<\ix &

^ad^menh of /]/fn.<RAcha<pAfc~Tk)£il G>urA.

ftppencl iX B

Jf/dcjnoanf of Single <-Tu<11 c.a „_____________

App&oAlX_C_("WjpnenR of full Run aero a J<n>d/rin 1 CouR. h«
Rppp/iJix

D Sti'Il rird not AnsaJfR petifhn f0* Rr.he^R\n^«

Appendix

E Appeals Coorai Refueln® $FoR pti&^menf *

Table of fUiihoR\f\es
Paqe

; Cases
j3ft.tXc5y V« Mt ClRy\c\nh .__
,

3

7 7.3 U-6. 7 3 (3964).-

; U/? th?(t Stnfas V. flquKR.
;

3

427 I/. ?. 9 7 Q?7fi).------ --

| IW/wd States' v- ffaglfy,
;

- 3

473 1J.4 667 Q976)ky(.<?<: v.V/hiiley. ___
__ SI 4-

----3

4-1? Q99 S) ~

CoM/Vooweeilth v. Elliton ,
— 3

3 76 A'aja. ( [(197/4).—
Corimanw^lih V.iUceeRi
417 Afgi$J\4ni (19 9 2)

360

----- -

S?2 (I?7I)--

--------3

— 12

Rpnn'ia v. K le'rn ,

6.33 f.23 g?fe, 19/? 1 U.S. App. lextVli 6£</.-------- 12

27

I

!

j

Cases

Page

iMamjLBR rl an eh V- Massach u a e i h^ejtjiL
jlll^CL2MZ2n±i^A.2d 3di2oi?uZUxh Uoo— I?
■ i

I FccReiia v« Cal) Foftn'ia ,
422.U-X. ROf, (49 7.5).—
i

— 12

\

■ 1

T

• i
■;

St/Rlckt#^ V. Vfash] A ahon /
----- 4l4_6_r_~

----14

Ce>PiR?ortoseal-th v. \J Illinois.
45 5 Mass,706' 7 IK . 9/9 hJ.F.. 7 e\ £j?5 r?e[e) r------ IS

i

i

!

I

M'lWervn'iu r? EOfUlii^ald'iristc .11 C v. f^lshlasdlz^___
45 6 Mate f,Z7.G2f,.92^. N.P. ?_A
(?.n\n).----- '6
Common wealth v. ObRien.
45? A7,n<r. 5 7K . 5g?-S?4- C2oo&).----------- 17

i

ComMonweMh V. MacCanihy__
i
i

__ 3R.S.Afarr, \P0 (j9g?^j r--~~

18-2.0

4-

i

C.e>rvni0nwen)fh, V. f)‘[)ell ,
19? Mas*. 44 4

!

T
: i

21

-- IK

■; Cases
-x-ULglf^d Stahls v* W/IN
A
j___-S04 U.s. 36 h9 92\ .--------

Pa. c) <?

- m

_________________________ ____________ _________________

naMy V, Cjsmmar)\jjeoi{\y t____
;
390 Mass. 2K.q 4i9Rl) —

- 1??

C&fnro&nKjjeMh V. L*3.<lie£ .

4Zft Mass. 9.02 n??f?y-~
Cev’7<r»o.na/<falf'’h v» (j/jan-f,
4-1 j? Mass. 76 619 94-).

— Iff

; Cop’/^onu/ealth v. Del \/<?#df
3?g /Vass.ZRR n?X£A.

- tg

L^iisIJj£y_._Dlsjt^i'c{' Coa/ii' of F.. Hampden.
____366 /vk;c S2 5 , S3 1 4i?7^).-----------U<7/fjfr) Staffs V. Calandfia ._______
„___ 414 U-S. 34ft. 34-2-74-A n?74-).—

tg-20

--- Ig

CofniVoio (vvyfl / f f) V, goyfl

14 Masc. /9pp. Ct. Sf)9 n?%?y

2£

— tg

!

;■ Ceases

Pa ae

PlatteR o
359

POP

7l\

C.vporoon<jea\ hh V. 9alraon.
s.

; C.oryW1om>J&tl\i~h V. Mahdjsig^
\_____ 173 Mass, 43K M977y

-- 19

------ 19

19

J CpriPOontiiea-lWi V. McX L&2_cL______________
i)____ ^9P Mass. 727. 733 ri9*5).-------------- 19

JoOif^ V. /bobbins .
i__g &RtAy (74 Afosg,) 37? . ^44- r l !?s 7).—- 19

I C.oraffonijJga.l'th V. GgA_gj_g. rj
|

33 9A7fls.r. 4/?7. 4-9 7 (1957),
— 20

3g5 Muss, at 161.
\

Z0

Ms/eRs V. Caw <??«>/) a/e a I Hi.______

.J____' 363 Mqss. £4? . £4-9 h9 7iy.- —

30

20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C__ to the petition and is
[ ] reported at
; or,
(X has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Zap Rene Jud/djal
appears at Appendix _£___to the petition and is
[ ] reported at
or,
IXI has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix C

I0/23,2o 2a

A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

r
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

ffass* Const, fix tide I
MaSS* Const* fftticl?
M&ZS- Const. fifth cl? H
Hass- Consh- RRticle \z

MaiS-CenSt- faticleZ?
l)S~ Cansh fmeAclnoent I
U.5 . Const. f\ver,6Me»\ 5
,
Rmnbnen't &

u.s

U.5

, Consh RfnsnAneot >4-

GX.C. ZU §. 3
Z% U 5 c 1331
2g VS c 1343 00
2g u S C 1443 CO

42 u s c 2ooo a.
42 use
42 USC

\9g3
\?Z5

31

STATEMENT OF FACTS FOR THE CASE
^ . I Hamid Reza Ardaneh making this Exculpatory Information and statement of facts pursuant to Mass. R.
Crim.P.14 (a)(l)(A)(iii), Brady v. Maryland, 373 U.S. 83 (1963), Unite States v. Agurs, 427 U.S. 97
(1976), United States v. Bagley, 473 U.S. 667 (1985), Kyles v. whitley, 514 U.S. 419 (1995),
Commonwealth v. Ellison, 376 Mass. 1 (1978), and Commonwealth v. Tucceri, 412 Mass. 401 (1992).
*2 * I Hamid Reza Ardaneh begin duly sworn state:

3. On 06/12/1978 without choice I was bom in the Iran.
4. On 1998 Sanaz Siyonit was my Jewish girlfriend in the Iran.
5. On 07/13/20001 married Sanaz Siyonit she was Jewish and I did not believe for any religion. On this
date Sanaz Siyonit by her choice and without any force change from Jewish to Muslim religion, she stated
do not like be Jewish anymore and refused to leave Iran and go to the Israel together her parent.
6. On 06/26/2001 was bom my son Sanaz Siyonit was Muslim and I did not believe for any religion.
7. 20 years only I was working, my wife Sanaz Siyonit had always joy and never working in the Iran.

3

8. On 10/01/2015 my wife Sanaz Siyonit and my son and I by using my money and using visa refugee
absolutely legal came to the United States.
9. On 06/10/2016 Sanaz Siyonit and her family Jacob Babai, David Merfeld and Bonnie Friedman stole
$ 20,000 my money.
10. On 6/17/2016 a false restraining order was filed allegedly unconstitutional against me by my wife of
20 years the alleged victim Sanaz Siyonit, hearing date was on 6/29/2016 in the Cambridge District
Court, police brought me to a Hotel in Cambridge I was not arrested.
11. On 6/19/2016 the alleged victim (my wife) in complete disregard of restraining order begins a series
of messages and voicemail communications with the petitioner’s sister stated the petitioner not must go to
the Court and must leave the country or she will have him deported. (See Exhibits)
12. On 6/19/2016 the alleged victims (my wife) sent the text messages begin a series of bribes. First
$1000 then $3000 then $7000 lastly $15000, also said bought the airline ticket for the petitioner and he
must leave the U.S.A. or he will be arrested. “Police are waiting.” (See Exhibits)
13. On 6/19/2016 at 3 PM the alleged victims Uncle Jacob Babai and two Jewish Family members David
Merfeld, Bonnie Friedman contacted the petitioner and request a meeting.
14. The petitioner Hamid Agrees to meet only if done at the Police Station in Cambridge.
15. On 6/19/2016 at 7 to 8 PM can see in video camera in Cambridge Police Station and half an hour
before made the false police reports. Jacob and Bonnie and David met with the petitioners at the lobby
Police Station and counted $7000 in cash and give him the airline ticket stating if the petitioner goes to
the Airport he will get this $7000.
16. Jacob stated if the petitioner didn’t go he would be arrested jailed and deported. (See Exhibit)

4

17. On 6/19/2016 at 7:45 PM the petitioner says no I won’t take the money I canceled the Airline Ticket.
“I will never leave the United States” and “I will go to court.” refused to leave the U.S.A., refused to take
the bribe from the alleged victim and her family.
18. On 6/19/2016 at 8:22 PM 30 minutes after the petitioner refused to $7000 cash bribe and refused to
leave the U.S.A., the petitioners wife (Alleged victim) goes to the Belmont Police Station and files false
police reports and false charges of rape allegedly against the petitioner, the alleged victim Sanaz Siyonit
bought the airline ticket for the petitioner, by using bribe and intimidation want to force him to leave the
U.S.A., she making false reports to the police, she said Hamid have the airline ticket wanted to leave the
United States and go back to the Iran. Based on this false statement the Belmont police arrested the
petitioner the next day.
19. On 6/19/2016 at 10:15 PM the flight to Iran was scheduled to leave the Boston. The petitioner
cancelled the airline ticket at 9:30 PM.
20. On 6/19/2016 at 10:45 PM the petitioner sent a text message to Jacob Babai to tell him cancelled the
airline ticket prior to the flight and the money from the airline ticket was refunded to Jacob Babai’s
account from the airline ticket was purchased.
21. On 6/19/2016 at 11 PM Jacob Babai replied to the petitioner the text message said “Ok thank you”.
22. On 6/20/2016 also the alleged victim Sanaz Siyonit sent voicemails to petitioner’s sister, she said
Hamid refused to take the $ 7000 in cash, refused to leave the United States she will put him in jail and
deport him. The exculpatory voicemail evidence is proof of innocence for Hamid and is proof of bribing,
intimidating of witnesses and making the false police reports by alleged victim Sanaz Siyonit and her
family Jacob Babai, David Merfeld and Bonnie Friedman.
23. On 6/20/2016 one day after the petitioner refused to leave the United States, refused to take the bribe
from the alleged victim, by plot from the U.S. Jewish family and the U.S. Government, the police without

5

any crime based on the false police reports arrested the petitioner because was close to time for taking the
Green Card for the petitioner.
24. On 6/22/2016 the Petitioner was arraigned on the current charges of raping his wife of 20 years. The
judge in the Cambridge District Court, allegedly unconstitutional and only by using the false police
reports against the petitioner, Judgment for $ 100,000 cash bail and send him Jail Billerica, DOC in the
Jail Billerica for 14 months using hard mental and physical torture for the petitioner and by using any
plot, trick and torture forcing him to Muslim Religion.
25. The petitioner explained to defense counsel McGown those 30 minutes prior to the Police report,
Petitioner was at the Cambridge Police Station and his wife’s (alleged victim) family was counting cash
under review of the camera to bribe him with the Airline ticket and $7000 in cash to leave the U.S.A.
26. CPCS McGowan stated to the petitioner that the defendant must wait and we will get the video. Yet
3-4 months later CPCS McGowan never motioned to preserve evidence.
27. The petitioner also explains to CPCS McGowan he possesses multiple messages from the alleged
victim (who is his wife) clearly showing intimidation and threats of deportation if the petitioner does not
accept the bribe of $ 15,000. (Also a voicemail from the alleged victim can explain).
28. The petitioner explains to CPCS Attorney the Airline ticket and the counting of cash at the Police
Station was explained to Police officers yet they withheld this exculpatory material.
29. On 8/18/2016 the District Attorney Ceara Mahoney by using only the alleged victim Sanaz Siyonit
making false statement to the Grand Jury, allegedly unconstitutional against which resulted in 8 false
charges for the petitioner, there was no proof only a false verbal statement from the alleged victim Sanaz
Siyonit (my wife of 20 years) without any evidence, no mark, no picture, no medical paper, no witness,
the alleged victim after lie happened not call Police, not go to Hospital, she said in Grand Jury minute go
to work for her job. The first attorney Caroline McGowan gave the petitioner 26 pages allegedly
6

unconstitutional the Grand Jury minute and told him the District Attorney Ceara Mahoney only is able to
use the alleged victim Sanaz Siyonit as witness and only is able to use the false Grand Jury minute as
evidence, cannot use anything more in the case, no evidence and no witness for proof of 8 false charges
for against not guilty the petitioner.
30. In open court the petitioner after 11 months of ineffective counsel, asks Judge to discharge counsel.
The Petitioner explained to Judge the CPCS McGowan is not pursuing exculpatory evidence.
31. Judge asks CPCS McGowan the video, voicemail, text messages and the Airline ticket are evidence?
32. CPCS McGowan stated it was not evidence in a willful misrepresentation and disregard of the truth.
33. Second CPCS counsel did nothing to pursue exculpatory evidence and refused to use the statement.
34. Third Attorney would not even look at the Petitioners’ text messages, voicemail and video now
placed in his possession, refused to use exculpatory evidence and did nothing for defend the petitioner. In
one year 3 defense counsels did not file anything in the case, no motion, no evidence and no statement,
nothing for defend the petitioner.
35. On 5/4/17 the Petitioner showed in open court a letter and pictures of his wife (the alleged victim)
mailed and send for the petitioner in Jail in violation of restraining order but the defense Attorney grabbed
his hand and stated “You cannot use this evidence in court.”
36. on 5/6/2017 DOC in the jail Billerica stole all evidence from the petitioner and falsely said destroyed,
the petitioner for protest to the government for stole and destroy his evidence and using hard torture for
him in the Jail, for 22 days did not eat any food, he lose 35 pounds weight and was close to die but the
government does not care about his life, ignored his protest, never give back his evidences and continued
hard torture for him in the Jail Billerica.

7

37. The United States and Commonwealth of Massachusetts using power of Government for destroy all
evidence, falsely said destroyed pictures and video evidence because want to protect the alleged victim
Sanaz Siyonit and her family Jacob Babai, David Merfeld and Bonnie Friedman because they are Jewish.
38. Shortly after the petitioner in open court explained to judge his evidence was stole at the jail and his
attorney would not assist. Judge assigned to new counsel.
39. Fourth CPCS Attorney Daniel Flaherty stated to the petitioner the messages to include voicemail.
Messages bribes, counting cash at Police Station (30 minutes before Police report), is not exculpatory
material favorable to the accused.
40. On 8/2/2017 the Petitioner in open court fired counsel and interpreter and presented 5 motions:
a) Motion to dismiss interpreter Talebinejad and CPCS Daniel Flaherty with request to represent himself.
b) Motion to produce video evidence at Cambridge Police Station.
c) Motion to dismiss charges.
d) Motion to a speedy trial.
e) Motion to complaint from the alleged victim Sanaz Siyonit and her family Jacob Babai, David Merfeld
and Bonnie Friedman.
41. Trial Judge asked the petitioner why he wanted to dismiss CPCS Flaherty.
42. The petitioner responded he does not want to use my evidence; he made false statements and refuses
to confrontation against the alleged victim and her family.
43. The Judge stated “Do you have money to hire an attorney.” This is the 4th attorney if you fire him
you have to pay money for an attorney.
44. The petitioner stated he does not have money and does not want any more attorneys because no
attorney wants to use my evidence. I want to represent myself, use my evidence and prove my innocence.

8

45. The Judge stated “ no you cannot represent yourself. ” You must go to Bridgewater State Hospital for
20 day evaluation, refused to dismiss fake defense counsel and interpreter, and ignored voice from the
petitioner (no freedom of speech) and all pro-se motions, refused to file the exculpatory evidences.
46. A 15(a) took place at the court in which the petitioner should court evaluator his evidence.
47. The court initiated process under 15(b); despite all petitioners evidence in hand, under pretext to
silence the accused in Bridgewater State Hospital. Judicial Power abused to be oppressive.
48. On 8/22/2017 the petitioner again in open court attempted to present his exculpatory evidence to the
Judge in which his attorney CPCS Daniel Flaherty refused to use.
49. On 8/29/2017 Dr. Jessica Surrett of Correct Care Solutions falsely stated under oath Hamid has an
order for medication and refused to take it. (Was not any order for medication).
50. Medical records clearly reflect the order never existed for medications for 9 months (SEE EXHIBIT).
51. Dr. did swear falsely in open court and falsely testified that Hamid was paranoid and did not know
court process.
52. Recent staff at Bridgewater Dr. Robert Portney, who is also staff of MGH and McLean Hospitals and
faculty of Harvard Medical School, reported “I have seen no evidence for any Psych Pathology but I
remain concerned that he is not given adequate representation due to the language barrier and his natural
distrust of a foreign land. However he has always been pleasant and cooperative with me.” “I can order no
psych medication at this time as I have no idea what I would be treating.” (SEE EXHIBIT)
53. The petitioner is erroneously deprived his liberty under G.L.c. 123 section 15(b) without his
constitutional guarantee to “fair procedure.”
54. The petitioner is a student of law, files in the Middlesex Superior Court of the motion to discharge
counsel and appointment of new counsel, declaration in support of Motion and certificate of service to:
9

(1) District attorney Ceara Mahoney
(2) Clerk of Middlesex Superior Criminal Court
(3) Trial Judge of Docket# 1681CR00418
(4) Chief Justice trial Court Paula Carey
Service was made on 2/6/2018. (SEE EXHIBIT)
55. The petitioner was never given “fair hearing” on the motion under Article 12 and the Sixth and
Fourteenth Amendments, again ignored motion and refused to discharge counsel and interpreter.
56. On 1/5/2018 and 3/9/2018 the petitioner filed a complaint with Board Bar of overseers on CPCS
Flaherty. (But remember Hamid does not understand Court Process)
57. Flaherty has not communicated with the petitioner for 20 months.
58. The present lawyer Daniel Flaherty failed to pursue exculpatory evidence in possession of
defendants’ brother, to include exculpatory voicemail and messages but refused to file in the case.
59. Counsel Flaherty stated in open court the alleged victim wanted to help defendant by offering $7,000
and bought the airline ticket for him.
60. This outrageously non loyal assistance of counsel is “shocking” to the principle of the Sixth
amendment Jurisprudence to not use exculpatory evidence of the bribe and intimidation instead labeling
as “help.”

61. The petitioner filed motion to discharge counsel and fired Daniel Flaherty in open Court on
08/02/2017 but the Middlesex superior Court Allowed motion to discharge counsel on 04/04/2019 and
after 2 years without Criminal Defense Counsel keeping the petitioner in a mental Hospital appointed a
new defense counsel for the petitioner.
62. Debra Dewitt is fifth fake defense counsel Hamid filed a motion to discharge counsel and fired her.
10

63. The petitioner fired 10 fake defense counsels, 5 Criminal and 5 Mental Health defense counsel.
64. On 3/15/2018 the Cambridge Family Court without Rights to Defense Counsel, without rights for
spilt money, does not call petitioner for the Court, without rights for defense self, without any Rights
Judgment divorce for Sanaz Siyonit and by injustice take my wife from me.
65. On 6/30/2018 the Cambridge District Court for the false restraining order allegedly unconstitutional
against me of false charge without evidence, without rights to discovery, without rights to defense
counsel, without rights to true translation, without rights to defense self, ignored my exculpatory evidence
for proof of my innocence and proof of violating the restraining order with bribing and intimidating of
witnesses by the alleged victim and her family, without any Rights for alone Iranian Refugee by
absolutely injustice, prejudice and discrimination Judgment permanent order and take my son from me
forever. That is prove my claims are true for against the U.S. Government about taking my family wants
make fake crime and to deport me because I am not Jewish but my Iranian wife and my son are Jewish.
66. On 05/09/2018 the Brockton District Court without any fundamental and Constitutional Rights,
without Defense making false Judgment, incompetent for stand trial, one year commitment in the BSH
and Rodgers order forcing to take false Psych medications by Reason Likelihood of serious harm without
prove.
67. On 05/09/2019 Expire the Court order and the petitioner refused to take false Psych medications.
68. After 7 months Refused medications from 10/02/2019 to 12/02/2019, 275 witnesses, 220 American
Employee, 83 American Men and 137 American Women of Staff of the Bridgewater State Hospital
signed for Supporting of facts and proved I Hamid Reza Ardaneh am not dangerous, I did not anything
Wrong and always I am Respectful to Everybody.
69. On 12/11/2019 the Court ignored 275 witnesses and Exculpatory Material Evidences, without any
fundamental and Constitutional Rights, again without defense myself, using allegedly false evaluation
11

and testify, without prove call me dangerous to others, making false judgment for one more year
commitment to BSH, incompetent for stand trial and again false Rodgers order forcing me to take
dangerous false Psych Medications.
70. The Commonwealth cannot make a final Jury Trial for the Allegedly Unconstitutional false Criminal
charges that why by Abusive Process, without fundamental and Constitutional Rights making Allegedly
Unconstitutional false mental health case, on 05/09/2018 and 12/11/2019 making false Judgment without
any prove call me dangerous to others, incompetent for stand trial, deprived of life and liberty for Actual
Innocence and forcing me to take dangerous false Psych Medications.
71. In the Commonwealth of Massachusetts a defendant if found competent to stand trial if he has
sufficient present ability to consult with his lawyer with a reasonable understanding, and if he has the
rationale as well as the factual understanding of the proceedings against him. See Commonwealth v.
Ernest L.Vailes, 360 Mass. 522 (1971).
72. Involuntarily committed patients have substantive Constitutional rights to Refuse Medications. The
state cannot ignore due process and simply seize a person and Administer drugs to him without his
consent. Procedural due process requires the state to prove that the institutionalization of a patient is
Required by Reason of his being danger to himself or others or property if he is not so confined. See John
E. Rennie v. Ann Klein, 653 F. 2d 836, 1981 U.S. App. Lexis 11589.
73. My Exculpatory Material Evidences proving I am actual innocence, I am not dangerous, I am not
mentally ill, the alleged victim and her family are guilty. Also my legal work and my PRO-SE Supreme
Court Case proving I am competent for Stand Trial, see Hamid R. Ardaneh v. Massachusetts, et al., 139
S. Ct. 2662, 204 L. Ed. 2d 301, 2019 U.S. Lexis 3600, and I have Rights to Represent myself too, see
Faretta v. California 422 U.S. 806 (1975).
74. Commonwealth of Massachusetts using the allegedly unconstitutional false Criminal and Mental
Health Cases and is 4 years deprived of life and liberty for actual innocence the petitioner, using
12

punishment, torture and attack mentally and physically because hiding crimes of Bribing, Intimidating of
Witnesses and making false police reports to protecting guilty the alleged victim Sanaz Siyonit and her
Jewish family Jacob Babai, David Merfeld, and Bonnie Friedman. Also making false crimes to deport the
petitioner because the U.S. Jewish Family making Jewish husband for his wife and taking his son from
him.
75. Clearly video evidence of the alleged victims’ family counting $ 7,000 cash inside the police station
and bribing the defendant 30 minutes before the Police reports is material in which goes to credibility of
the accuser as well as culpability. As culpability and state of mind and other material evidence in the form
of voicemail left by the alleged victim stating “Hamid refused to take the $ 7,000 cash, refused to leave
the United States now I will put him in jail and deport him.” Also other material evidence in the form of
text messages from the alleged victim bribing the defendant first by $ 1000, then $ 3000, then $ 7000 and
lastly $ 15000 and stating bought the airline ticket for the defendant, he must leave the United States or I
will put him in Jail and deport him. Also the defendant has copy of the airline ticket for prove of
Intimidating of witnesses and Bribing by the alleged victim and her family. All material evidences are
prove of crimes by the alleged victim and her Jewish family after the restraining order and before the
police report bribing and intimidating for defendant and are prove of the police reports and all charges for
the petitioner are false and making by the alleged victim after the defendant refused to take the bribe.
Such exculpable material not only supported Hamids’ case it showed actual innocence. Also other
material evidence in the form of 275 witnesses, 220 American Employee, 83 American Men and 137
American Women of Staff of the Bridgewater State Hospital signed for supporting of facts and proved I
Hamid Reza Ardaneh am not dangerous,! did not anything wrong and Always I am Respectful to
everybody. That not only proved Hamid have no Mental illness, not need any treatment, not need to use
False Medication, also proved Hamid is not dangerous, not Criminal and-he is Respectful to Americans
Women too.

13

76. The Supreme Court has recognized that the Sixth Amendment right to a counsel exists, and is needed,
in order to protect the fundamental right to a fair trial. The Constitution guarantees a fair trial through the
Due Process Clauses, but it defines the basic elements of fair trial largely through the several provisions
of the Sixth Amendment; including the Counsel Clause. Strickland v. Washington, 466 U.S. 668 at 685. “
Thus, a fair trial is one in which evidence subject to adversarial testing is presented to an impartial
tribunal for resolution of issues defined in advance of the proceeding. The right to counsel plays a crucial
role in the adversarial system embodied in the Sixth Amendment, since access to counsel’s skill and
knowledge is necessary to accord defendants the ‘ample opportunity to meet the case of the prosecution.”’
Here this prima-facie pleading alleges a substantial and serious deficiency measurably below that of a
competent causing this Plaintiff a severe prejudice as a matter of law, the trial record affirmatively
demonstrates beyond any doubt that if counsel had done each of the things the Plaintiff asked him to do
the outcome of process would be different. The Plaintiff brought to the attention of multiple counsels, as
well as judges that exculpatory evidence to include video of the victims’ family counting cash of $ 7,000
bribe in the lobby of the Cambridge Police Station 30 minutes before the victim (his wife) filed the Police
report. The gross and unacceptable failure of counsel’s to pursue this legal matter and trusted to counsel
has resulted in an outrageous prejudice and has impaired the Anglo-American adversarial system to
produce a just result. The Sixth Amendment recognizes the right to the assistance of counsel because it
envisions counsel’s playing a role that is critical to the ability of the adversarial system to produce just
results. An accused is entitled to be assisted by an attorney, whether retained or appointed, who plays the
role necessary to ensure that the trial is fair.
77. For that reason, the Court has recognized that “the right to counsel is the right to the effective

4

assistance of counsel.” If the Court for more than i years only keeping name of counsels in the case
without any result that is not rights to counsel for Hamid. Here counsel’s performance was so deficient
and their errors were so serious that counsel was not functioning as the “counsel” guaranteed the
defendant by Sixth Amendment. Counsels’ errors in the case at bar are so serious has to deprive the
14

defendant a video evidence in which would have cast serious doubt on credibility of the victim. The error
has deprived the defendant of a fair trial and it is clear that counsel has failed in their duty to bring bear
such skill knowledge as well as loyalty as to render the trial a reliable adversarial testing process as
guaranteed by the Sixth Amendment. Here without doubt to the lost video evidence would have supported
the Plaintiffs’ case see Commonwealth v. Williams, 455 Mass. 706, 718, 919 N.E. 2d 685 (2010). This
court then must “way the materiality of the evidence and the potential prejudice to the defendant as well
as the culpability of his CPCS attorneys who failed to pursue the legal matter and entrusted to counsels.
78. Plaintiff claims the defendant have violated his rights under Article 11 of the Massachusetts
Declaration of Rights. Art. 11 of our Declaration of Rights guarantees to every citizen the right to “obtain
right and justice freely, and without being obliged to purchase it; completely, and without any denial;
promptly, and without delay; conformably to the laws,” and without having to file a lawsuit. Here the
Plaintiff brought to the attention of several judges that his lawyers were not pursuing a litany of
exculpatory evidence to include video of victims’ family counting cash of $ 7,000 in the lobby of the
Cambridge Police station 30 minutes before the victim filed a Police Report, as well as messages of
intimidation andbribes directly in Plaintiffs hands in open court. Yet judges failed to take any inquiry
into the fairness of these proceedings or effectiveness of counsels’ representation. That has reduced these
proceedings to a sham, this plaintiff under Art. 11 should not have to purchase his guaranteed trial rights
by filing this Prima-Facie case of retaliation. Article 11 already provides these rights under the State
Constitution. To have to use the First Amendment petition clause to enforce these rights is “grave
unfairness” and has brought the judiciary into disrepute.
79. Plaintiff claims his rights under Article 29 are being impinged based upon extra-judicial source of
their natural district of the Plaintiffs’ national origin of being Iranian as well as a language barrier this
impermissible consideration is having a discriminatory affect up the Plaintiffs’ Rights under Article 29 of
Massachusetts Declaration of Rights. The Judges’ outward expression of partiality and willful disregard
of Law during deliberative process in motions to discharge counsel out of severe personal animosity but 15

for cause discrimination toward national origin has affected reasonable judgment and has manifest of bias
and prejudice. Such bias and prejudice in the plaintiffs’ proceedings have impaired the fairness of the
proceeding and have now brought the judiciary into disrepute. See S.J.C. Rule 3:09, Canon 3(b)(5), as
appearing in 440 Mass. At 1312, Commentary to B 3B(5). There is no question this prima-facie pleading
poses a serious dispute concerning the administration of justice now requiring injunctive relief in the case
at bar there has been partial interpretation of the laws as well as a willful disregard for Plaintiffs’
guaranteed Sixth and Fourteenth Amendment trial rights effective assistance of counsel and compulsory
process. Commonwealth v. Rogers clearly the S.J.C. made clear motions to discharge counsel requires
action yet the lower courts have completely ignored the Plaintiffs’ substantive assertions that CPCS
attorneys’ are totally denying assistance this prima-facie pleading has alleged sufficient facts, except it as
true to state a claim of relief under Article 29 of the Massachusetts Declaration of Rights. Require an
injunctive relief.
80. On 8-2-2017 the Petitioner after several months of studying law presented to the court 5 motions.
Motion for speedy trial (2) Motion to discharge interpreter and counsel and for self-representation (3)
Motion to produce video evidence at the Cambridge Police Station (4) Motion to dismiss charges and (5)
Motion to Complaint from the alleged victim Sanaz Siyonit and her family Jacob Babai, David Merfeld
and Bonnie Friedman. The judges’ in addressing only discharge of counsel basically told Hamid if he
didn’t have the money to pay for another counsel he would have to represent himself. Hamid gladly stated
to the judge “I don’t want any more of your attorneys’.” “I want to represent myself and use my own
evidence and prove my innocence.” To this 15(a) process was initiated for an ulterior or illegitimate
purpose, resulting in damage. Millennium Equity Holdings, LLC v. Mahlowitz, 456 Mass. 627, 636, 925
N.E. 2d 513(2010). Here a 15(a) process laws initiated by the trial judge and his own non-loyal CPCS
counsel, to accomplish the oppressive silencing of a reasonable intelligent accused seeking and
demanding pursuit of silencing Hamid in pursuit of Police Station video was to hide the prosecutors
breach of duty in automatic discovery. Mass. R. Crim. P. 14(a)(l)(A)(iii), as amended, 444 Mass. 1501
16

(2005), and which would have cast the prosecutor into the role of an Architect of proceeding that does not
comport with standards of justice...Brady, 373 U.S. at 87. Hamid was sent to Bridgewater State
Hospital on now a 15(b). Upon completion of 15(b) Correct Care Recovery Solutions Jessica Surrett
falsely testified under oath Hamid was not taking his medication he was paranoid and cannot work with
attorneys’ yet there was never an order of medication. Hamid was committed for 6 months as being
incompetent to stand trial resulting in damage, in the form ofjudicial oppression, to silence the accused
and prevent him from pursuit of liberty.
81. The potential prejudice to Hamid caused by ineffective assistance of counsel is off the charts. They
falsely said that the lost video evidence cannot be replaced. Counsels’ failure to hold the prosecutor
accountable to Brady order is a substantial departure from acceptable standards and prevailing norms of
practice as reflected in American Bar Association standards, e.g. ABA standards for criminal justice 4-1.1
to 4-8.6 (2d ed. 1980). Recently the S.J.C. ruled on May 8, 2018 CPCS & other v. Attorney General,
S.J.C.-12471 “Rule 14 broadly defines exculpatory evidence as any facts of an exculpatory nature.” The
S.J.C. further ruled that Mass.R.Crim.P. should include Brady checklist. Consistent with this opinion
CPCS attorney failed to pursue exculpatory material showing “actual innocence” causing a severe
prejudice. The trial Judges’ refusal to allow Hamid a voice to be heard in his own criminal prosecution as
well as outward expressions of partiality and willful disregard of Law has brought the judiciary into
disrepute and has impaired the fairness of Hamids’ proceedings.
82. Closing pursuant to its general superintendence powers under G.L.c. 211 section 3, the single justice
of the Supreme Judicial Court has the authority to take any action necessary in the furtherance ofjustice,
the regular execution of the laws, and the improvement of the administration ofjustice for Hamid in
Middlesex Superior Court. Commonwealth v Obrien, 432 Mass. 578, 583-84(2000).

17

Memorandum of law for the case
Requested to Dismiss Alleged Grand Jury indictment numbers
1681CR00418 pursuant to Mass. R. Crim. P13 and Commonwealth v.
MacCarthy,.385 Mass 160(1982) and Commonwealth v. O'Dell, 392
Mass 445 (1984) and United States v. .Williams, 504 U.S. 36 (1992)
So the trial Judge must Allowed Motion to Dismiss pursuant to
Barry v. Commonwealth, 390 Mass 285 (1983) and Commonwealth v.
Lasher, 428 Mass 202 (1998) and Commonwealth v. Grant, 418 Mass
76 (1994) and Commonwealth v. DelVerde, 398 Mass 288 (1986).
In Commonwealth v. O'Dell, 392 Mass 445 (1984) the Supreme
Judicial Court affirmed the Dismissal of an indictment concluding
that the integrity of the Grand Jury proceeding was impaired by
an unfair and misleading presentation to the Grand Jury. The
Courtfound that the withholding of a portion of the Defendant's
Statement distorted the portion that was repeated to the Grand
Jury in a way "that so seriously tainted the presentation to that
body that the indictment should not have been allowed to stand."
Id. at 477. The Court was satisfied that the integrity of the
Grand Jury proceeding was impaired and that the indictment must
be Dismissed.
The Grand Jury has the dual function of determining whether there
is probable cause to bllieve a crime has been committed and of
protecting citizens against unfounded criminal prosecutions.
Lataille v. District Court of E. Hampden, 366 Mass. 525, 531
(1974). So when a fair presentation does not occur, both
functions of the Grand Jury are usurped.
The necessary breadth of the investigative power of a Grand Jury
has long been recognized. United states v. Calandra, 414 U.S. 338
342-346 (1974). A Grand Jury function "is not fully carried out
Until every available clue has been run down and all witnesses
Examined in every proper way to find if a crime has been

i -v

©ommitted." Commonwealth v. Sava. 14 Mass. App. Ct. 509 (1982).
And it is only after the Grand Jury has examined the evidence -crib
that a determination of whether the proceeding will result in an
indictment can be made. Id. at 515.
18

Because the ancient and public function and role of the Grand
Jury is as an investigative body, Matter of Pappas, 358 Mass. 604
(1971), when the prosecution stifles this role such that the
cumulative effect is to usurp on of the Grand Jury functions,
then there can be no doubt that the integrity of the Grad Jury
has been impaired and indictment must be Dismissed.
because the Commonwealth's actions were willful in that the
Commonwealth proactively disrupted and stopped the investigation
and instructed the witness not to answer, the Commonwealth should
also be precluded from seeking to reindict. See Commonwealth v.
Salman, 387 Mass. 160 (1982), and Commonwealth v. Manning, 373
Mass.438 (1977).
Role of the Grand Jury-Generally
The issuance of a lawful indictment is a condition precedent to a
defendant being compelled to answer for, and endure expense,
public obloquy and anxiety which a trial upon an indictment
necessitates. In this Commonwealth, the Grand Jury performs the
important task of determining whether there is probable cause to
indict the accused. This process serves as a shield against
unfounded criminal prosecutions. Commonwealth v. McCleod, 394
Mass. 727, 733 (1985). Also in Commonwealth v. McCarthy, 385
Mass. 160, 163 n. 6 (1982), the Supreme Judicial Court reiterated
the importance of these traditional functions in maintaining the
integrity of Grand Jury proceedings:
"The Right of an individual citizen to be secure
from an open and public accusation of crime and
from trouble, expense and anxiety of public trial
before probable cause is established by the presentment
and indictment of a Grand Jury in case of high
offenses, is justly regarded as one of the Securities
to the innocent against hasty, malicious and
oppressive public prosecutions........... "
This time honored passage by Chief Justice Shaw, Jones v,
Robbins, 8 Gray (74 Mass.) 329, 344 (1857) demonstrates the
protections oftthe Rights of the accused which stem primarily
from the due process guarantees of the Fourteenth Amendment to
the U.S. Constitution, and Article XII of Massachusetts
Declaration of Rights.
19

It is the Constitutional prerogative of the Grand Jury to act as
an informing and. accusing body. Commonwealth v, Geagan, 339 Mass.
487, 497 (1959), Cert. den. 361 D.S.895 (1959). The Grand Jury
has the dual function of determining whether there is probable
cause to believe a crime has been committed and of protecting
Citizens against unfounded criminal prosecution. Lataille v.
District Court of E. Hampden, 366 Mass. 525, 531 (1974).
In recognition of this crucial role, it has been established that
"at the very least" the Grand Jury must hear sufficiet evidence
to establish both the identity of the accused and probable cause
to believe the accused committed the charged offense.
Commonwealth v. McCarthy, 385 Mass, at 163. A Grand Jury finding
of probable cause is necessary if indictments are to fulfill
their traditional function as an effective protection " against
unfounded criminal prosecutions." Lataille v. District Court of
E. Hampden, 366 Mass. 525, 531 (1974). furthermore, the standard
of probable cause requires a greater quantum of legally competent
evidence than probable cause to arrest.jjayers v. Commonwealth,
363 Mass. 843, 849 (1973).
The Grand Jury can only properly exercise its dual function,
establishing probable cause, while protecting Citizens from false
accusations of crimes, through evidentiary procedures consistent
with the Constitutional Guarantees of Article XII. Thus, an
indictment must be Dismissed;if not supported by probable cause.
Commonwealth v. McCarthy, 385 Mass. 160 (1982).
Here, the District Attorney failed to present video evidence of
the Alleged victim's family counting $ 7000 cash inside the
Cambridge police station, Intimidating and Bribing the Defendant,
30 minutes before making false police reports the Defendant
refused to take the Bribe from the Alleged Victim is Material in
which goes tocredibility of the accuser as well as culpability.
As culpability and state of mind and other Exculpatory Material
evidence not given to the Grand Jury involved a voicemail left
by the Alleged victim stating "Hamid refused to take the $ 7000
cash and refused to leave the D.S.A. now I will put him in Jail
and deport him." There was other exculpatory material evidences
in the form of text messages left by the Alleged victim Bribing

20

the Defendant, first by $ 1000, then $ 3000, then $ 7000 and
lastly $ 15000, stating bought the airline ticket for the
Defendant to leave the U.S.A. immediatly. Other exculpatory
material evidence is copy of the airline ticket proved the
Alleged victim intimidating and Bribing to the Defendant, Also
other exculpatory material evidences in the form of signature of
305 witnesses, 250 American employee, 90 American Men and 160
American Women of staff of the Bridgewater state Hospital signed
for supporting of facts and proved the Defendant Hamid R. Ardaneh
is not dangerous, did not anything wrong and he is always
Respectful to everybody.
Accordingly Exculpatory information was not presented to the
Grand Jury, so there was insufficient probable cause to betieve
that the defendant committed any of the offenses he is charged
with.
WHEREFORE, Defendant moves this Honorable Court to Dismiss all
indictments with prejudice.

Signed pursuant to 28 U S C 1746 under penalty of perjury under
the laws of the United States of America that the foregoing is
true and correct.
Date 10/10/2020
PRO-SE

Respectfully Submitted

Hamid Keta fjadaneh
By Hamid Reza Ardaneh

£
21

'+mWv/

I
lifea
V.-'.

f|

la
#

inm

«:,te

wp, ,‘^i

,,.(_■ 4ji, -.,;ri»1,toAi-.'.,:»ii j

..^,1

‘iljl',2. A.|)>fj

M;1 -.^ill jji

tiiji j*ssi bKj jj.

PM Wh
EhgMh: J^iMkorii jfe
•*> .#! -Mete;?. Emcfts&k):, l'i@l- ajdltsii Ky, f^s' -PTfcHft

^ .

** c&
m.

E:<hihif 3 W / Sy 2019

:j|

Ty&nstettOB rWm Pcrsmii

XI

\

Ramie! Reza RadaaeVx

Transleted by Fatemeh Mashhadikhalil ^
Date of translate: 11 /04/201 9

@r4

Translated voice messages and text messages from Sanaz Siyonit (alleged
victim) to Mitra Ardaneh (defendant’s sister). Defendant is Hamidreza Ardaneh
in Middlesex Superior Court case

no.i68icroo418

Voice message sent by Sanaz Siyonit to Mitra Ardaneh: The way he wants to go

1;

to Iran has nothing to do with me. I wanted to give himseven thousand dollars

y

plus a thousand dollars for his flight yesterday, but he didn't accept. Now even

.

p
8;': ! '
{.

if he dies I’ll not give him a single cent.

r-

r

§■,

Text message sent by Sanaz Siyonit to Mitra Ardaneh: the police forces him to

■fo

r;!
i

leave the house, he doesn’t have the right to get near Amir and I.
Text message sent by Mitra Ardaneh to Sanaz Siyonit: Where is he now?
Text message sent by Sanaz Siyonit to Mitra Ardaneh: We got him a hotel last
night. I packed all his stuff so that my uncle gives it to him. We have court
date in two weeks. The fight tickets will be bought for him. They’ll give him a
thousand dollars. If he doesn’t want to go back to Iran tell him to go to Europe
where his friends are.

i

y^rtU'

:i. .

•_**«£

■y

'** '*"-‘*S>-^i *r u-^*,

.-V
*■;w

■s*

$

f f'

,4*M<

aj*V*

],

,1

.

,, -

J# fw*.,^

i,Kro’5' !.:J&m',c ^ !01' fnWr«i(- fy-fl

JM J}p,j •

/■'

V
-

<•■'

Text message sent by Mitra Ardaneh to Sanaz Siyonit: He cant do anything with
a thousand dollars.
Text message sent by Sanaz Siyonit to Mitra Ardaneh: He
can go to Europe or
anywhere alse that he wants. Imagine him as a dead person’from now on
because he is in a realy bad situation.
Text message send by Mitra Ardaneh to Sanaz Siyonit: Co finish this problem
and let him go.
Text message sent by Sanaz Siyonit to Mitra Ardaneh: If he doesn’t accept, he
will go to the jail. What is he thinking? He is crazy, He thinks that he is
collecting evidence from us. I’ll fuck his mouth. I’ll do something so he go back
with all the misery. This is the end if he can’t undrestand it he will be sent to the
jail until he gets deported. He is dumb he doesn’t undrestand.
Text message send by Mitra Ardaneh to Sanaz Siyonit: What could he do or
where could he go with one thousand dollars? He doesn’t have anything here.
Text message sent by Sanaz Siyonit to Mitra Ardaneh:

If he accepts I’ll give him

one thousand dollars from my own stupid wage.
23

'ft ^^

\%\

I

w

mm

ggjj

#

-w.
£?

h

'+'*'**l&***HO&~*t. ^iM^ys

'

*«*«<

't *;*

<>
**■

So it will be three thousand dollars equal hundred

million Toman or more. He

can take back the house and sell it and do whatever he
go back with a little respect and not like

wants. This way he will

a offender that police take him to the

airport. There are available flights for tonight. If not

we’re done. Answer

Tell him fifteen thousand dollars so he becomes donkey (to fool him )
Text message sent by Mitra Ardaneh

to Sanaz Siyonit: Do you think I’m doing

a deal?

Text message sent by Sanaz Siyonit to Mitra Ardaneh: If he doesn’t go back
he will get arrested. Let me know in five minutes, the police
are waiting.
Text message sent by Mitra Ardaneh

to Sanaz Siyonit: What happend?

Text message sent by Sanaz Siyonit to Mitra Ardaneh:

We were giving him

seven thousand dollars and we bought his ticket that he
but he realy doesn’t deserve it. Anyway it doesn’t matter

can start a new life

anymore. I did what
I had to do from the beginning and he said he will not leave
and he said that
he did this to show that we offered him money(a bribe)

■j

#

;'W«r

9r
#:

4% ^wSi-tfe^,'

./? j&.i-i. ,', * 9*lM^; Mw*** \m ftriufe'4*-'
•»• MS. 1,J"'Itebr.

*t«ttn,E» Td.i.o^ij

■

>''

Text message sent by Hamidreza Ardaneh to Jacob Babai(Sanaz Siyon

it’s

uncle: I canceled the flight ticket so you don’t waste money.
Text message sent by Jacob Babai to Hamidreza Ardaneh: Ok thank you

Text message sent by Hamidreza Ardaneh to Jacob Babai: Please tell Sanaz
to take her court complaint back, if not I will bring everyone to the

court.

and also tell her to apply for our divorce. I will get separated from her and I
will entrust our child to her.

Text message sent by Jacob Babai to Hamidreza Ardaneh: Ok good night.

A \
l&(.

|

25

■¥

Reasons for Granting the Petition
This Case proved Mafia are dangerous for the U.S.A. and most
Judges, Attorneys and Doctors working for Mafia.
Mafia forcing people to do crimes for business with Courts,
Jails and Hospitals and for this business deprived of life and
liberty for people that why are so many Courts,JJails and
Hospitals in the United States but original business are making
Psych medications and mafia need making customer for Psych
medications, so need to making mental illness for people that why
in Jails using hard torture for making mental illness.
If torture does not work by excuse of competency for stand trial
sending people to Hospitals. After 23 hour a day keep people in
cell and using hard mental and physical torture in Jails giving
more freedom, more food and good time for prisoners in Hospitals
and by this trick

forcing to prisoners for choice Hospitals and

using false medications or if some one do not choice be mentally
ill mafia

using Hospitals and Doctors for making false

■i^V

:acio

evaluations and false reports making false medical record and by
false Judgment forcing to take false medications because Mafia
making money with sell Psych medications.
I Hamid Reza Ardaneh am a legal Refugee status also I have
Social Security Number. I am actual innocence and requested
"A JUSTICE" so the petition for a writ of Certiorari should be
Granted.

26

CONCLUSION

The petition for a writ of certiorari should be granted.

2

Respectfully submitted,

Haro/d Rez& fiadcineh
Date:

14- NoyemlyeR ZO Zo
11/ 14/2^20

3Z

i

